NO. ______________

IN THE SUPREME COURT OF THE UNITED STATES

BENJAMIN PAUL KEKONA AND TAMAE M. KEKONA,
Respondents-Plaintiffs-Appellees,
vs.
MICHAEL BORNEMANN,
Petitioner-Defendant-Appellant,
and
PAZ FENG ABASTILLAS, also known as Paz A. Richter, ROBERT A. SMITH, personally,
ROBERT A. SMITH, Attorney At Law, A Law Corporation, STANDARD MANAGEMENT,
INC., U.S. BANCORP MORTGAGE COMPANY, an Oregon Company, WESTERN SURETY
COMPANY, Sued herein as Doe Entity 1,
Respondents-Defendants-Appellants,
and
JOHN DOES 1-10; JANE DOES 1-10; DOE CORPORATIONS 1-10; DOE ENTITIES 1-10;
Respondents-Defendants-Appellants.

2068796

APPLICATION FOR EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI
EXHIBITS A - C
CERTIFICATE OF SERVICE
STARN O'TOOLE MARCUS & FISHER
A Law Corporation
TERENCE J. O'TOOLE (310027)
733 Bishop Street, Suite 1900
Pacific Guardian Center, Makai Tower
Honolulu, Hawai'i 96813
Telephone: (808) 537-6100
Email: totoole@starnlaw.com
Attorney for Petitioner-Defendant-Appellant
Michael Bornemann

2068796

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATUES AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT:

Pursuant to Supreme Court Rules 13.5, 22 and 30, Petitioner-Defendant-Appellant Michael
Bornemann ("Bornemann" or "Petitioner") respectfully requests a 60-day extension of time, up
to and including September 1, 2019, to file a petition for a writ of certiorari to the Supreme Court
of the United States to review the Supreme Court of the State of Hawaii's Order Rejecting
Petitioner's Application for Writ of Certiorari in Kekona. v. Bornemann, SCWC Nos. 16-0000679
& SCWC 16-0000782 (attached as Exhibit A), seeking review of portions of the Memorandum

Opinion of the Intermediate Court of Appeals of the State of Hawaii ("ICA"), filed November 30,
2018, and related Judgment, attached hereto as Exhibits B ("Memorandum Opinion") and C.
The Petitioner intends to file a petition seeking review of this Memorandum

Opinio~

and

related Judgment under Supreme Court Rule 12. The jurisdiction of this Court will be invoked
under 28 U.S. C. ยง 1254(1 ), and the time to file a petition for a writ of certiorari will expire without
an extension on July 3, 2019.

This application, filed by Petitioner from both of the cases

consolidated by the ICA, is timely because it has been filed more than ten days prior to the date
on which the time for filing the petition is to expire.
The case sub judice spans nearly thirty (30) years and tens of thousands of pages in the
appellate record. In light of the size of the record, in addition to competing client matters in the
intervening time period from when the Memorandum Opinion was issued, undersigned counsel,
along with appellate co-counsel, respectfully need the additional time to properly prepare
the Petition on behalf of Bornemann.
For the above-stated reasons, Bornemann respectfully requests that this Court grant this
Application and that an order be entered extending the time to file a petition for writ of certiorari
for 60 days, up to and including September 1, 2019.
DATED:

Honolulu, Hawaii, June 21, 2019.

1

